 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




CENTERS FOR DISEASE CONTROL AND
    PREVENTION’S EDUCATIONAL
       RESOURCE CENTERS
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Semi=, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit SeMces (OAS) provides all auditing semices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also ovecsees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.

Principal OEI staff included:


Atlanta Retzion                                       Headmmrtem


Pegg Daniel, Project Leader                           Mary Beth Clarke, Program Specialist

Ron Kalil, Team Leader                                Dave Wright, Program Specialist

Paula Bowker, Program Analyst

Tammy Bonney, Program Analyst


To obtain a copy of this report, call the Atlanta Regional Office at 404-331-4108.

 Department of Health and Human Services
         OFFICE OF
    INSPECTOR GENEML




CENTERS FOR DISEASE CONTROL AND

    PREVENTION’S EDUCATIONAL

       RESOURCE CENTERS





                      psSERVIC&8   “ba
                ~d+
                                      7


           ~w
                                          JUNE  GIBBS BROWN
           :                              Inspector General
           s
            % ~
             %+--                                 MARCH 19%
               %’d~a
                >                                OEI-04-92-00900
             EXECUTIVE                          SUMMARY


PURPOSE

To determine the extent that Educational Resource Center graduates, supported by
the National Institute for Occupational Safety and Health, pursued careers in the
occupational safety and health field.

BACKGROUND

The National Institute for Occupational Safety and Health (NIOSH), Centers for
Disease Control and Prevention (CDC), provides grant funds to 14 university-affiliated
centers that provide training on occupational safety and health. The centers, known as
Educational Resource Centers (ERCS), were initiated in 1977 in response to the
Occupational Safety and Health Act of 1970. The Act mandated that the Secretary of
Health and Human Semites “ensure an adequate supply of trained professionals for
the occupational safety and health field.” NIOSH funding for the Centers was $9
million in FY 1994.

We surveyed all 14 ERCS to determine the extent that Educational Resource Center
graduates, supported by NIOSH, pursued occupational safety and health careers. All
14 ERCS responded to our survey. We also randomly sampled 205 graduates to
obtain their perception on the overall effectiveness of training they received. About
55 percent (112) of the 205 sampled graduates completed and returned our survey
instrument.

FINDINGS

Most NIOSH-supprted gradiutmpureed occupationalsafetyand healthcareen

According to both our survey of ERCS and graduates, at least eighty-two percent of
the graduates obtained work in the occupational safety and health field. At 9 of the
14 ERCS, over 90 percent of NIOSH-supported graduates pursued occupational safety
and health careers. Of those students who graduated during the 5-year period (1989-
1994), 80 percent are still working in their chosen occupational safety and health field.

About half of the NIOSH-supportedgraduatespumuedoccupationalsafetyand heakh
careersiiaprivateogantitions

Of the 928 NIOSH-supported ERC graduates pursuing occupational safety and health
careers between 1989-1994, about 52 percent pursued careers in private organizations.
Forty-five percent of the graduates pursued careers in government or academia. A
very small percentage of graduates are in settings other than private, government, or
academia.



                                            i
NIOSH-suppti     graduutesconsiiikredEkihcatkmdResoume Cen&rtminbzgto be high
Pm’

Seventy percent of the responding graduates rated the quality of educational resource
center training as excellent. Ninety-four percent of graduates told us that the ERC
training adequately prepared them for an occupational safety and health career.

CONCLUSION

As mandated by the Occupational Safety and Health Act of 1970, ERCS successfully
train and graduate students for careers in occupational safety and health. We are
making no recommendations but have included in our report a number of suggestions
from graduates for improving the curriculum.

AGENCY COMMENTS

The CDC/NIOSH concurred with the findings of our report.      Appendix C shows the
full text of CDC’S comments.




                                           ii
                       TABLE                     OF CONTENTS

                                                                                                                    PAGE




ExEcumm            SUMMARY

INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..”.    ”” Q””o. c””o” o.” 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        ...............”.””.0”
     Most NIOSH-Supported Graduates Pursued

     Occupational SafetyandHealth Careers . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


     About Halfof NIOSH-Supported                     Graduates Pursued

     Careers in Private Organizations                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..000”.6


     NIOSH-Supported Graduates Considered Trainingto

     be High Quality . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...””            ““”.-””.*6


     Educational Resource Centers Are Successful in

     Supplementing NIOSHFunding.     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


CONCLUSION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


AGENCY CO Moment                     s . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


APPENDICES

     NIOSH-Funded           Educational Resource Centers . . . . . . . . . . . . . . . . . . . . . . . A-1


      Analysis of Respondents            vs. Non-Respondents               . . . . . . . . . . . . . . . . . . . . . . . B-1


      CDC Comments             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l
                        INTRODUCTION


PURPOSE


To determine the extent that Educational Resource Center graduates, supported by

the National Institute for Occupational Safety and Health, pursued occupational safety

and health careers.


BACKGROUND


The National Institute for Occupational Safety and Health (NIOSH), Centers for

Disease Control and Prevention (CDC), provides grant funds to 14 university-affiliated

centers that provide training on occupational safety and health. The centers, known as

Educational Resource Centers (ERCS), were initiated in 1977 in response to the

Occupational Safety and Health Act of 1970. The Act mandated that the Secretary of

Health and Human Services “ensure an adequate supply of trained professionals for

the occupational safety and health field.”


The Educational Resource Centers administer four core academic programs
 --
industrial hygiene, occupational medicine, occupational health nursing, and

occupational safety. Educational Resource Centers provide full and part-time career

training for students pursuing masters and doctoral degrees in occupational safety and

health. The Centers also provide cross-training for practitioners and for students

pursuing degrees in other, related fields.


Grant funds are awarded to either one institution or a consortia of schools which must
meet requirements for academic training in three of the four core programs. The
Centers must also provide continuing education for practicing professionals, an
outreach program to other private and public educational institutions, and
multidisciplinary interaction among students.

Over the past three fiscal years, NIOSH funding to ERCS has remained fairly constant.
For example, NIOSH funded the ERCS at $8.6, $9.1, and $9.0 million respectively for
FYs 1992, 1993, and 1994.

METHOIXXDGY

We surveyed all 14 ERCS. We mailed survey instruments to 11 ERCS, and obtained
information from the 3 remaining ERCS through on-site interviews. Appendix A
identifies the 14 NIOSH-supported ERCS.

To determine whether or not ERC graduates pursued careers in occupational safety
and health fields, we first asked officials at all ’14 ERCS to provide data showing
number of students graduated and their career choices over the last five years (1989-



                                           1

1994). Westratified that data by(l) core program [Industrial Hy@ene, Occupational
Health Nursing, Occupational Safety, and Occupational Medicine], (2) year, and
(3)individual ERC. Wethencalculated       percentage ofstudents pursuing careersin
the occupational safety and health field.

Next, to obtain graduates perceptions on ERC training, we randomly selected 205
graduates from 13 of the 14 ERCS during the 5-year period (1989-1994). We excluded
graduates from one of the 14 ERCsbecause university policy precludes release of
student names and addresses.

Resurveyed thegraduates in June 1995 toassess theoverall effectiveness of the
training they received while attending an ERC. Forexample, weasked them (l)to
rate the quality of the education they received, and (2) whether or not the training
prepared them for an occupational safety and health career.

One hundred twelve of the graduates we surveyed completed and returned our
questionnaire (55 percent). At the 90 percent level of confidence, this gives us a
precision of +/- 10 percentage points. Ninety-three graduates didnotrespond       to our
survey. We concluded from our analysis of non-respondents and respondents that
there is no significant bias in our survey results which are related to academic core,
year of graduation, or geographic location of the Centers. Appendix B provides
details of this analysis.

Finally, we obtained ERC funding data from CDC/NIOSH officials for the past three
fiscal years.

To develop findings for this report, we weighted graduate responses according to the
proportion of graduates in each core program to the total ERC population.



This inspection was conducted in accordance with Quality Standards for Iizspections
issued by the President’s Council on Integrity and Efficiency.




                                            2

                                FINDINGS

MOST NIOSH-SUPPORTED GRADUATES                   PURSUED    OCCUPATIONAL
SAFETY AND HEALTH CAREERS

Over80 Pement Of NIOSH-SupportedGraduatesRusued OccupationalSafetyAnd
H&      Carom Overlhe Lust5Ym

NIOSH-supported graduates pursuing occupational safety and health careers has
remained fairly constant over the last five years. Table 1 shows that, according to data
furnished by the ERCS, between 84 and 91 percent of the graduates pursued
occupational safety and health careers over the 5 year period of our study. Likewise,
a weighted 82 percent of the 112 graduates responding to our survey told us that upon
graduating from an ERC they obtained work in the occupational safety and health
field.

                                       TABLE 1
     NIOSH-SUPPORTED  GRADUATES PURSUING OCCUPATIONAL SAFETY
                    AND HEALTH CAREERS ANNUAUY

II               Data Represents All 14 ERCS And 4 (he       Pro]




                                                                    =lEl
                                    I!J!)@       1991-     1992-     1993-     Total 5-
                                    1991         1992      1993      1994      Years
                                    220          193                  222       1,062




The high employment rate was obtained even though the ERCS did not provide
“forma~’ job pla;ement services. A weighted 67 pe;cent of the graduates responding
to our sumey told us that their ERC did not provide formal job placement services.
They said they found occupational safety and health careers by word of mouth,
networking, personal contacts, ads in professional journals, job bulletin boards, and
faculty advisors. The ERCS we contacted confirmed the lack of formal job placement
services. However, ERC officials advised that the ERCS do help graduates find career
opportunities through “informal” means. For example, networking, faculty contacts,
word of mouth, and posting job announcements.


                                             3
At 9 Of l%e 14 Educatbnal Resowce Ckn&mjOver90 Pexent Of NIOSH-Suppwted
Gm&ates Rusued Occupdond tifety And Health Carem

Among the 14 ERCS, the percentage of NIOSH-supported ERC graduates who
pursued occupational safety and health careers ranged from 52 to 100 percent over
the last 5 years. However, Figure 1 shows that between 92 and 100 percent of the
graduates at 9 of the ERCS pursued occupational safety and health careers during the
five year period.

                                        FIGURE 1



         PERCENT OF GRADUATES PURSUING CAREERS
            IN OCCUPATIONAL SAFETY AND HEALTH


           6-Year Period: 1989-1994





                                                        98   99 100100

                                        92 94


                             84

                       78


                 68





                       14 Educational     Resource    Centers




                                           4

iVIOSH-Sqpmted GraduutesRusutd Ckrem In Each Of Four Cbre Occupational
SafetyAnd Hmkh Fields

According to data furnished by ERC officials, graduates find careers in each of the
four occupational safety and health core programs. Table 2 shows that over the five
year period included in our survey, graduate employment ranged from 75 percent in
the Occupational Safety program to 92 percent in the Industrial Hygiene program.



                                      TABLE 2
      NIOSH-SUPPORTED GRADUATES PURSUED CAREERS IN EACH
                        CORE PROGRAM


            Data Represents 5-Year Period 1989-1994 For All 14 ERCs




Mat GraduatesT&      To Clmtime OccupationalSafep And Hedh Careen

According to the graduates who responded to our survey, a weighted 80 percent who
graduated between 1989 and 1994 were still working in their chosen occupational
safety and health field at the time of our survey. The ERC officials we surveyed
corroborated the statements of the graduates. They told us that based on their follow-
up surveys, graduates remained employed in the occupational safety and health field
for their entire careers -- with few exceptions.




                                          5

ABOUT HALF OF THE NIOSH-SUPPORTED GRADUATES PURSUED
OCCUPATIONAL SAFETY AND HEALTH CAREERS IN PRIVATE
ORGANIZATIONS

Of the 928 NIOSH-supported ERC graduates pursuing occupational safety and health
careers between 1989-1994, about

       b      52 percent pursued careers in private organizations,

       b      26 percent pursued careers in government,

       �      19 percent pursued careers in academia, and

       b      3 percent are in settings other than private, government,   or academia.

NIOSH-supported graduates who did not pursue an occupational safety and health
career did not do so because they were (1) pursuing other degrees (e.g. medical,
doctoral), (2) working in another field (e.g., home health care), or (3) staying at home
to raise children.

NIOSH-SUPPORTED GRADUATES CONSIDERED EDUCATIONAL
RESOURCE CENTER TRAINING TO BE HIGH QUALITY

Almost all graduates perceived educational resource center training to be a high
quality academic program. Generally, they commented that the Centers used
knowledgeable and experienced faculty and provided a comprehensive well structured
curriculum. A weighted 70 percent of the graduates responding to our survey rated
the quality of educational resource center training as excellent. A weighted 20 percent
rated the quality as good, 9 percent rated it average, and about 1 percent rated it
poor.

lillucatiinudResoume Ceratem
                           Bepared GraduatesFor OccupationalSafey And Heallh
Cizrem

A weighted 94 percent of graduates responding to our survey told us that the ERC
training adequately prepared them for an occupational safety and health career. A
weighted 75 percent of graduates we surveyed said the curriculum was appropriately
balanced between theory and hands-on training experience.




                                            6

NIOSH-Supprted GraduatesSu~d             Implements   For%     Edkational Resource
CknterCurkukm

About half of the graduates suggested improvements for the ERC curriculum. The
changes they suggested varied by core program as summarized below. The suggestions
were not made by all graduates at all ERCS, but merely represent a sampling of
suggested improvements.

Occupational   Health Nursing

  �	    Provide more hands-on training as well as more exposure to various
        occupational clinical sites

  �	    Add additional courses on worker’s compensation,    toxicology, orthopedics, and
        epidemiology

  b	    Include more information on specific OSHA regulations and how to interpret
        those regulations

Industrial Hwziene

  b     Place more emphasis on hazardous waste management

  b	    Provide seminars that focus on current issues and new regulations currently
        affecting the industrial hygiene field

   b	   Offer courses on indoor air quality, industrial toxicology, management   and
        communication, safety, analytical techniques, and sampling strategies

Occupational   Safetv

   b    Focus more on the economic/loss control aspect of curriculum to better prepare
        graduates to “sell” safety to management

   b    Increase instruction in industrial hygiene

Occu~ational Medicine

   b    Include toxicology and computer courses

   �    Expand epidemiology course

   b    Increase clinical exposure
ERC officials told us that in many instances, the changes suggested by graduates had
already been implemented. A few of the graduates also commented that some of
their suggested changes had been implemented.

EDUCATIONAL RESOURCE CENTERS ARE                    SUCCESSFUL
                                                            IN
SUPPUWENTING NIOSH FUNDING

Federal regulations published by NIOSH/CDC require ERCS to use other sources of
funds to supplement NIOSH grant funds. Sources for other support include other
Federal grants, States and other public agencies, and the private sector, including
grants from foundations and corporate endowments, and gifts.

During the 1993-1994 program year, ERCS obtained $21.4 million from non-NIOSH
sources such as Veterans Administration, Department of Energy, Chevron, Eastman
Kodak and individual universities. For every NIOSH dollar, ERCS obtained $2.35
from non-NIOSH sources.

Table 3 shows that during the 1993-1994 program year, non-NIOSH funding sources
provided 70 percent of the funding for ERCS.


                                      TABLE 3
II   SOURCES OF FUNDING FOR EDUCATIONAL RESOURCE CENTERS                               II
1                      1993-1994 Program Year - AU 14 ERCS
                                                                                          I
 CDC/NIOSH
                             I
                                      $9,093,587
                                                         I
                                                                      30%
                                                                                          I
 OTHER FEDERAL
                             I
                                     $11,899,866
                                                         I
                                                                      3970
                                                                                          I
 STATE
I PRIVATE/OTHER
                             I
                                      $6,436,058
                                                         1
                                                                      21%
                                                                      10?40
                                                                                          I
                                      $3,070,565
1                                                                                      ,
IITOTAL                      I        $30,500,167         I          10070             II

CONCLUSION

As mandated by the Occupational Safety and Health Act of 1970, ERCS successfully
train and graduate students for careers in the occupational safety and health field. We
are making no recommendations but have included in our report a number of
suggestions from graduates for improving the curriculum.

AGENCY COMMENTS

The CDC/NIOSH concurred with the findings of our report.      Appendix C shows the
full text of CDC’S comments.


                                           8
                                APPENDIX                          A


            NIOSH-FUNDED EDUCATIONAL RESOURCE CENTERS


                           ERC NAME                                          CITY, STATE


Deep South Center for Occupational Health and Safety                   Birmingham, AL

(University of Alabama at Birmingham; Auburn University)

Northern California Center for Occupational and Environmental          Berkeley, CA

Health

(University of California at Berkeley, Davis and San Francisco)

southern California Educational Resource Clmter                        Los Angeles, CA

(University of southern California, Los Angeles)


The Great Lakes Center for Occupational and Environmental              Chicago, IL

Health and Safety

(University of Illinois at Chicago)

Johns Hopkins Educational Resource Center                              Baltimore, MD

(Johns Hopkins University)

Harvard Educational Resource Center                                    Boston, MA

(Harvard School of Public Health and Simmons College)

Michigan Center for Occupational Health and Safety Engineering         Ann Arbor, MI

(University of Michigan)


Midwest Center for Occupational Health and Safety                      Minneapolis, MN

(University of Minnesota, St. Paul-Ramsey Medical Center)


New York/New Jersey Educational Resource Center                        New York, NY

(Mount Sinai School of Medicine; Hunter College School of

Health Sciences; New Jersey Institute of Technolo~, New York

University Medical Centeq University of Medicine & Dentistry of

New Jersey)

North Carolina Educational Resource Center                             Chapel Hill, NC

(University of North Carolina, Duke University Medical Center)

University of Cincinnati                                               Cincinnati, OH


Southwest Center for Occupational and Environmental      Health        Houston, TX

(University of Texas, Houston)

Rocky Mountain Center for Occupational and Environmental               Salt Lake City, UT

Health

(University of Utah)

Northwest Center for Occupational Health and Safety                    Seattle, WA

(University of Washington)





                                                A-1

                            APPENDIX                  B


            ANALYSIS OF RESPONDEIVIll VS. NON-RESPOND=

A consideration in surveys of this type is that the results may be biased if non-
respondents are significantly different from respondents. To determine whether
significant differences exist in this survey, we compared academic core selection by
graduates, year of graduation, and geographical location of the ERC’S attended by the
112 respondents and 93 non-respondents.        Our analysis revealed no significant
difference. Therefore, the possibility of bias due to non-response is limited.

To test for bias in respondents versus non-respondents, we used a Two-way
Contingency Table analysis with the Chi-Square test. We calculated the expected
values for respondents and non-respondents assuming that respondents and non-
respondents are independent.

For our test of bias by academic core program and geographical location, we chose an
alpha value of .05 with 3 degrees of freedom. That produced a Chi-Square value of
7.815.

Our test statistic was 6.15 for our analysis by core program. This leads us to a
conclusion that classification of respondents and non-respondents are independent      by
core program.



                          NON-RESPONDENT ANALYSIS
                             BY CORE PROGRAM
                        Occupati(malOccupmimullOcJalpationaiIndustrial        TOTALS
                          Sarely       Health        Medicine   Hygiene
                                       Nursing

 Sample                    45            52            48         60           205


 # of Respondents           19           33             30         30           112


  # of Non-                26            19             18         30           93
  Respondents
 =                                                                        F




                                         B-1

Our test statistic for our analysis by geographical location was 2.557. This also leads
us to a conclusion that classification of respondents and non-respondents are
independent by geographical location.



                       NON-RESPONDENT ANALYSIS

                 BY ERC IN FOUR GEOGRAPHICAL REGIONS

                               sample          # of Respondents       # of Non-
                                                                      Respondents
 Northeast                       46                     22                     24
 Southeast                       41                     20                     21

 Midwest                         62                     36                     26
 West                            56                     34                     22
 TOTALS                         205                    112                     93


For our test for bias based on year of graduation, we chose an alpha value of .05 with
4 degrees of freedom. That produced a Chi-Square value of 9.488. We used 4
degrees of freedom for this test because we analyzed 5 categories of data.

Our test statistic was 1.793. This leads us to a conclusion that classification of
respondents and non-respondents are independent by their year of graduation.



                             NON-RESPONDENT ANALYSIS
                                     BY YEAR
                     1989-90    1990-91    1991-92    W92-93     1993-94       TOTALS
 Sample                 46         34        42          45         38           205
=                                                                          b
 # of                   22         19        26          25         20              112
 Respondents


 # of Non-              24         15        16          20         18               93
 Respondents
7                                                                          F




                                           B-2

APPENDIX   C



CDC COMMENTS




     c-1
“     :0’                                ID:4046390445                     FEB    09’96        15:07      No .003   P.02

�
/’’”’~’~
                    DEPARTMENT OF HEALTH & HUMAN SERVICES                             Public Health Service
i­
;                                                                                     Centers for Disease Control
    %-4                                                                                 and Prevention (CDCI




                       .                                                               Memorandum
          Date      , FEE?   6   Igg6


          From      Associate           Director         for Management   and    Operations,      . CDC


          Subject   CDC Comments on IG Draft Report                                                 .

          To        Peggy Daniel
                    Office of Inspector General
                    Office of Evaluations and Inspections


                    The IG Draft Report: “CDCS Educational Resource Centers” ‘

                    has been reviewed by Dr. Linda Rosenstock, Director, NIOSH,

                    and by grants staff members, Jay Bainbridge, John Talty and

                    Bernadine Kuchinski.


                     There are no comments regarding any changes or                            additions t~                .
                     the document.

                     Dr. Rosenstock would like to thank the Inspector General

                     and her staff for the quality and quantity of work

                     undertaken in carrying out this inspection and producing

                     the final report. During the course of this project they

                     have been very cooperative in working with NIOSH staff to

                     learn about the various Center programs and their

                     activities.   She is pleased with the results of the report

                     and believes they will be useful in helping NIOSH to plan
                     and monitor programmatic aspects of these grants and others
                     that may be supported  in the future.

                     Dr. Rosenstock would also be happy to cooperate on any

                     grant-related projects that the Inspector General’s office

                     would like to conduct in the future. For example, she would

                     be willing to meet with IG and CDC staff to discuss

                     innovative ways to explore the productivity of the small

                     training grant programs also supported by NIOSH.

                                                                  %

